r

IN THE SUPREME COURT OF THE UNITED STATES
NO.
!
I

IN RE SUPERVISED ESTATE OF AL KATZ:
LAWRENCE T. NEWMAN
Petitioner,;
v.
ROBERT W. YORK
as Personal Representative,
Respondent.

CERTIFICATE OF SERVICE
I hereby certify that the forgoing has been served upon the following
parties of record by First Class U.S. Mail this 16th day of July, 2021:

i

Robert W. York
7212 North Shadeland Avenue, Suite 150
Indianapolis, IN 46250

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 16, 2021
awrence T. Newman Pro Se

